OIG Audit Report 01-18
Return to the USDOJ/OIG Home Page
The Immigration and Naturalization Service's Automated
I-94 System
Report Number 01-18
August 6, 2001
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
I.	AUTOMATED I-94 SYSTEM PERFORMANCE NOT MEASURED
Performance Measures Not Established
Stated Goals Not Converted to Measurable Objectives
Baseline Information Not Gathered
Cost-Benefit Analysis Not Performed
Cost and Schedule Data Not Available
Conclusion
Recommendations
II.	AUTOMATED I-94 SYSTEM RISKS NOT ADEQUATELY MANAGED
No Risk Management Plan
Low Airline Participation Hampers Implementation
Departure Data Lacks Integrity
Conclusion
Recommendations
APPENDIX I      Statement on Compliance With Laws and Regulations
APPENDIX II     Statement on Management Controls
APPENDIX III    Objective, Scope, and Methodology
APPENDIX IV INS Response to the Draft Report (Electronic Copy Not Available)
APPENDIX V  OIG, Audit Division Analyses and Summary of Actions Necessary to Close the Report